No. 20-1388
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ALICE PERKINS AND FREDRICK PERKINS, PETITIONERS
v.
COMMISSIONER OF INTERNAL REVENUE
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION via e-mail and first-class mail,
postage prepaid, this 20th day of August 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 4,663 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
August 20, 2021

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 20, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1388
PERKINS, ALICE, ET VIR
COMMISSIONER OF INTERNAL REVENUE

GARY D. BOREK
99 VICTORIA BOULEVARD
CHEEKTOWAGA, NY 14225
716-839-4321
JOSEPH J. HEATH
512 JAMESVILLE AVENUE
SYRACUSE, NY 13210
315-447-4851
JJHEATH1946@GMAIL.COM
MARGARET A. MURPHY
LAW OFFICE OF MARGARET A. MURPHY
5354 BRIERCLIFF DRIVE
HAMBURG, NY 14075
7168671536
MAM@MAMURPHYPC.COM

